           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


     REVIEW OF UNIVERSITIES’
     ISSUANCE OF TEMPORARY
    SOCIAL SECURITY NUMBERS
       TO FOREIGN STUDENTS

     April 2004   A-08-04-24018




 MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM

Date:   April 26, 2004                                                                  Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Management Advisory Report - Review of Universities’ Issuance of Temporary Social
        Security Numbers to Foreign Students (A-08-04-24018)

        OBJECTIVE
        Our objective was to evaluate universities’ policies and procedures for issuing
        temporary Social Security numbers (SSN) to foreign students.1

        BACKGROUND
        Over half a million foreign students were enrolled at educational institutions in the
        United States during the 2002-2003 academic year. The growth of foreign student
        enrollment has continually increased over the past 5 years (see Appendix B). Foreign
        students are often employed on campus and need an SSN for tax reporting. These
        students must apply for an SSN through the Social Security Administration (SSA), the
        sole issuer of SSNs.2

        To improve its internal controls over SSN assignment, SSA began verifying the
        evidentiary documents of all noncitizens with the Department of Homeland Security
        before issuing an SSN.3 This procedural change caused delays in foreign students’
        ability to obtain an SSN and prompted some universities to issue a temporary nine-digit
        identification number as a temporary replacement for the SSN.

        In June 2003, we sent a letter notifying SSA of our concerns regarding some Florida
        universities’ practice of issuing temporary SSNs to foreign students. We focused our
        initial work in Florida and expanded our review to other universities nationwide (see

        1
          We use the term temporary SSN throughout this report to refer to instances in which universities issue
        nine-digit identification numbers to foreign students and refer to them as temporary SSNs. Some schools
        also refer to these numbers as “dummy” or “pseudo” SSNs. We will hereafter only refer to them as
        temporary SSNs.
        2
            Social Security Act, Section 205(c)(2)(B)(i).
        3
            SSA Policy Instruction EM-02091, August 2, 2002.
Page 2 – The Commissioner


Appendix C). This report serves as a follow up to our letter and recommends corrective
actions to address universities’ practice of issuing temporary SSNs.

RESULTS OF REVIEW
Based on our interviews with various university personnel and reviews of Internet
websites, we are concerned about universities’ issuance of temporary SSNs to foreign
students. We identified numerous instances in which universities issued temporary
nine-digit identification numbers to foreign students and improperly referred to them as
temporary SSNs. We are concerned that foreign students could easily construe these
temporary numbers as legitimate SSNs and potentially misuse them, thus creating SSN
integrity issues. SSA personnel with whom we spoke shared our concern, and the
Agency initiated a national review to identify universities that engage in this practice.
Despite SSA’s efforts to educate universities about their improper references to
temporary SSNs, the risk of exposure to this practice remains.

FLORIDA UNIVERSITIES’ ISSUANCE OF TEMPORARY SSNS TO FOREIGN
STUDENTS

Initially, we focused our work in Florida because the Florida Bureau of State Payrolls
(FBSP) had assigned a range of temporary 9-digit identification numbers
(800-series) to 11 State universities and referred to them as temporary SSNs.4 The
FBSP instructed universities that had experienced delays in obtaining SSNs for eligible
foreign students (due to SSA’s verification of noncitizens’ documents) to issue
temporary identification numbers for payroll purposes. The FBSP also instructed each
university to maintain a record of students assigned a temporary number and notify the
FBSP when they received a valid SSN. Although the FBSP’s intent was for State
universities to only use these temporary numbers for internal payroll processing, we
identified instances in which some universities referred to them as temporary SSNs,
reiterating the terminology used by FBSP. For example, we found the following
language on one university website.

        New SSA regulations went into effect August 12, 2002 that may create
        delays in issuing SSNs to foreign nationals. In order to prevent any undue
        hardship to our new hires that are foreign nationals, the University has
        added a special provision to our current process when hiring a new foreign
        national with no SSN. This special provision, providing a temporary
        university-issued SSN, will only apply to new hires that are foreign
        nationals. Once the SSA instructs the University that the delay no longer
        exists, this special provision to our current process will be eliminated.
        [Emphasis added]
During interviews with university personnel, one staff member stated that his school
generally issued foreign students a temporary SSN until they received a permanent

4
 Although the practice of issuing foreign students temporary SSNs first came to our attention in Florida,
we consider it a nationwide issue. We used Florida as a case study.
Page 3 – The Commissioner


SSN from SSA. He stated the university primarily provides temporary SSNs to graduate
students to allow them to start teaching and begin research projects before the
semester actually begins. He told us that foreign students are responsible for applying
for an SSN and replacing the temporary number with a valid SSN. The university staff
member shared an experience the school had with one student who never obtained a
valid SSN and left the United States with the attitude that the university could not make
her obtain one. Another university staff member stated that her school issued pseudo
numbers to graduate and research assistants for temporary purposes so that foreign
students could begin working, open bank accounts, and obtain drivers’ licenses.

We are concerned that foreign students could easily construe these temporary numbers
as legitimate SSNs and improperly use them in various ways, such as opening bank
accounts, obtaining drivers’ licenses, or gaining employment. This could potentially
create SSN integrity and earnings issues. Furthermore, misuse of temporary SSNs
could allow foreign students to assimilate into society before their immigration status is
verified, which increases the risk to homeland security.

To determine how foreign students may have used these temporary identification
numbers, we requested the FBSP provide us a list of the numbers issued at the
11 Florida universities during Calendar Year 2002. We determined that 96 foreign
students received wages,5 and all but 2 reported a valid SSN to the State. The State
reported the wages for these two foreign students under the numbers 000-00-0000.6
Because the name and SSN did not match, SSA placed these wages into its Earnings
Suspense File (ESF).7 In addition to recording wages, we attempted to determine
whether the students used any of the issued temporary numbers to obtain drivers’
licenses. The Florida Department of Law Enforcement told us it ran the temporary
identification numbers against Department of Motor Vehicles files and did not identify
any drivers’ licenses that had been issued to foreign students using the 800-series
range of numbers as the SSN. Because of privacy concerns, we did not attempt to
determine whether foreign students used these temporary numbers to open bank
accounts.

Although we did not identify instances in which foreign students misused temporary
SSNs, we believe the potential for such activity exists. The FBSP agreed with our
concerns and contacted the State universities to inform them that they should not refer
to the temporary identification numbers as SSNs on their websites or during discussions
with foreign students. Furthermore, the FBSP suppressed the temporary numbers
(labeled as SSNs) on pay statements to avoid any further confusion.

5
 Employers report their employees’ earnings to SSA annually on a Wage and Tax Statement
(Form W-2).
6
  The Internal Revenue Service instructs employers to report the wages of employees with no SSN under
the number 000-00-0000.
7
 SSA uses manual and automated edits to match employees’ SSNs and names to SSA’s master file to
post their earnings to the Master Earnings File. The ESF contains wage items that fail to match SSA’s
name and SSN records.
Page 4 – The Commissioner



SSA HAS TAKEN STEPS TO IDENTIFY AND EDUCATE UNIVERSITIES, BUT
ISSUANCE OF TEMPORARY SSNS REMAINS

In June 2003, we sent a letter notifying SSA of our concerns regarding some Florida
universities’ practice of issuing temporary SSNs to foreign students. In response to our
letter, SSA initiated a national review to identify the extent of the problem and instructed
its regional and field offices to contact universities in their areas. SSA’s review
identified 10 universities that were issuing temporary SSNs or making reference to them
on their websites. SSA requested these universities remove all references to temporary
SSNs from their websites and informational materials. SSA informed us it discussed
the issuance of temporary SSNs with a large university association, which expressed
interest in working with the Agency to educate schools about this improper practice.

Despite SSA’s efforts to educate universities regarding the issuance of temporary
SSNs, the risk of exposure to such activity remains. After SSA’s review, we expanded
our review and identified 22 additional universities (located in 9 SSA regions) that were
issuing temporary SSNs or making reference to them on their websites.8 Our review
included the 15 universities with the largest foreign student enrollment (see
Appendix D). We found that nine of these universities (60 percent) had references to
temporary SSNs on their websites. During a review of other websites, we identified
another 13 universities that had references to temporary SSNs.

We found the references to temporary SSNs in various places on university websites
and links, including registration and application forms, human resources sites,
international student program pages, and foreign student association sites. For
example, a large northeastern university had a link on its website that advised arriving
foreign students they could use their university-issued temporary SSN to open a bank
account and actually listed four banks on campus. A foreign student advisor from a
small northern college stated that foreign students were confused about the potential
uses of university-issued dummy SSNs, and some staff did not realize these numbers
were not valid. Furthermore, a staff member at a large southern university stated she
believed students used university-issued temporary nine-digit numbers to obtain cellular
telephones.




8
  We identified these universities through an informal review of university websites. This review was not
intended to be comprehensive in nature. Based on examples presented in this report, we assume
additional universities may be engaging in this practice.
Page 5 – The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
Despite SSA’s efforts to educate universities regarding their practice of issuing
temporary SSNs to foreign students, the Agency remains at-risk to such activity. We
recognize the challenge of educating such a large number of universities. However,
given the potential magnitude of the problem and threats to SSN integrity, such a
challenge should not discourage SSA from taking additional steps to safeguard SSNs.
Given the potential risks for foreign students to misuse temporary identification
numbers, we believe SSA can better safeguard SSN integrity by educating all
universities about the proper issuance of SSNs to foreign students.

Accordingly, we recommend that SSA:

1. Contact the additional universities we identified that issued temporary SSNs and
   educate them about the potential risks of this improper practice.

2. Coordinate with national educational associations and foreign student organizations
   to educate the university community about the potential risks of referring to student
   identification numbers as temporary SSNs.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. Regarding Recommendation 1, SSA stated it
sent the Regional Commissioners a note asking them to instruct the 22 universities that
had references to “temporary SSNs” on their websites to remove those references from
their websites and informational materials. SSA also requested that the Regional
Commissioners advise the universities of the purpose and use of the SSN and the
potential risks associated with issuing “temporary SSNs.” Regarding
Recommendation 2, SSA stated it has an on-going dialogue with several of the national
educational associations and will introduce this topic at its next discussions with these
groups. The full text of SSA’s comments is included in Appendix E. We believe the
Agency’s actions demonstrate its commitment to protect the integrity of the SSN.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                  Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Universities with the Largest Foreign Student Enrollment

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
ESF    Earnings Suspense File

FBSP   Florida Bureau of State Payrolls

OIG    Office of the Inspector General

SSA    Social Security Administration

SSN    Social Security Number
                                                                                      Appendix B

Background
Over half a million foreign students enrolled at educational institutions in the United
States during the 2002-2003 academic year. Some universities enroll large numbers of
foreign students and endeavor to assimilate these students into American society as
soon as possible. The growth of foreign student enrollment has continually increased
over the past 5 years, as shown in the Figure below. Tightened visa procedures slowed
the growth rate to only .6 percent for the 2002-2003 academic year. Foreign student
enrollment had increased by 6.4 percent each year for the 2 previous academic years.


                         Foreign Student Enrollment at U.S. Colleges and
                           Univesities over the Last 5 Academic Years

                           600,000
                           580,000
                           560,000
                 Number of 540,000
                  Foreign 520,000
                  Students 500,000
                           480,000
                           460,000
                           440,000
                                         1998/99   1999/00     2000/01    2001/02    2002/03
                                                            Academic Year

               Source: Institute of International Education website: http://www.iienetwork.org

Foreign students are often employed on campus and need a Social Security number
(SSN) for wage reporting. These students must apply for an SSN through the Social
Security Administration (SSA), the sole issuer of SSNs.1 To improve its internal controls
over SSN assignment, SSA began verifying the evidentiary documents of all noncitizens
with the Department of Homeland Security before issuing an SSN.2 This procedural
change caused delays in foreign students’ ability to obtain an SSN and prompted some
universities to issue a temporary nine-digit identification number as a temporary
replacement for the SSN.




1
    Social Security Act Section 205(c)(2)(B)(i).
2
    SSA Policy Instruction EM-02091, August 2, 2002.



                                                      B-1
In a prior Office of the Inspector General report, we outlined the role universities play in
issuing work authorization letters and highlighted SSA’s risk of exposure to improper
enumeration of foreign students.3 In the report, we recommended that SSA propose the
regulatory requirement that evidence of actual employment be necessary for foreign
students to receive an SSN. SSA agreed with our recommendation and stated it
already submitted this regulation to the Office of Management and Budget.




3
 The Social Security Administration’s Procedures for Enumerating Foreign Students
(A-05-03-23056, December 2003).


                                                 B-2
                                                                       Appendix C

Scope and Methodology
To accomplish our objective, we

•   interviewed selected university personnel responsible for foreign student
    admissions/registrations;

•   reviewed Internet websites of the 15 universities with the largest foreign student
    enrollment and randomly reviewed others;

•   interviewed Social Security Administration (SSA) personnel responsible for
    conducting SSA’s review to identify and educate universities regarding the issuance
    of temporary Social Security numbers (SSN);

•   reviewed SSA policies and procedures for enumerating foreign students;

•   reviewed applicable laws and regulations; and

•   reviewed prior SSA Office of the Inspector General audit work regarding
    enumeration of foreign students.

We performed our work at a field office in Tallahassee, Florida. In addition, we
interviewed personnel at the Florida Bureau of State Payrolls in Tallahassee, Florida, to
obtain an understanding of its policies and procedures for issuing temporary SSNs to
foreign students. The SSA entity reviewed was the Office of the Deputy Commissioner
for Operations. We conducted our audit from July through December 2003 in
accordance with generally accepted government auditing standards.
                                                                                   Appendix D
        UNIVERSITIES WITH THE LARGEST FOREIGN
                STUDENT ENROLLMENT
Our review focused on the 15 universities with the largest foreign student enrollment for
the 2001-2002 school year. The table below shows the names and locations of these
universities as well as updated statistics for their foreign and total student enrollments
for the 2002-2003 school year.

                          Foreign Students (2002-2003 School Year)

                                                                    Foreign          Total    Percent
Rank            School                        Location              Students       Students   Foreign
        University of Southern
  1     California                  Los Angeles, California           6,270         30,682     20.4

  2     New York University         New York, New York                5,454         38,096     14.3

  3     Columbia University         New York, New York                5,148         23,324     22.1
        Purdue University
  4     Main Campus                 West Lafayette, Indiana           5,105         38,564     13.2
        University of Texas at
  5     Austin                      Austin, Texas                     4,926         52,261      9.4
        University of Michigan–
  6     Ann Arbor                   Ann Arbor, Michigan               4,601         38,972     11.8
        University of Illinois at
  7     Urbana-Champaign            Champaign, Illinois               4,555         38,263     11.9

  8     Boston University           Boston, Massachusetts             4,518         28,981     15.6
        University of
  9     Wisconsin-Madison           Madison, Wisconsin                4,396         41,462     10.6
        Ohio State University
 10     Main Campus                 Columbus, Ohio                    4,334         49,676      8.7
        University of
 11     Pennsylvania                Philadelphia, Pennsylvania        3,856         22,326     17.3
        Florida International
 12     University                  Miami, Florida                    3,741         33,800     11.1
        University of Maryland
 13     College Park                College Park, Maryland            3,734         34,801     10.7

 14     Texas A&M University        College Station, Texas            3,702         45,083      8.2

 15     University of Florida       Gainesville, Florida              3,547         47,241      7.5

                  Total                                               67,887       563,532     12.0
Source: Institute of International Education website: http://www.iienetwork.org.
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                      33169-24-1098


Date:      April 9, 2004                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Management Advisory Report, "Review of
           Universities' Issuance of Temporary Social Security Numbers to Foreign Students" (A-08-04-
           24018)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG)
MANAGEMENT ADVISORY DRAFT REPORT, "REVIEW OF UNIVERSITIES'
ISSUANCE OF TEMPORARY SOCIAL SECURITY NUMBERS TO FOREIGN
STUDENTS" (A-08-04-24018)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
providing us an early alert on this issue and for the follow-up work you have done to help
identify opportunities to minimize the potential for misuse of Social Security numbers (SSN).

The Social Security Administration (SSA) has taken steps that are designed to further protect the
integrity of the SSN as it relates to foreign student enumeration. The report cites procedural
delays, caused by collateral verification, as a reason why some universities may have issued
nine-digit numbers as a temporary substitute for an SSN. In January 2004, all of our field offices
began faxing verification requests, for foreign students applying for SSNs, to the Los Angeles
Status Verification Unit of the Department of Homeland Security (DHS). DHS accesses data in
their Student and Exchange Visitor Information System (SEVIS) to validate student status. This
new process results in a three to five day turnaround time and greatly increases the speed with
which we can assign SSNs to these applicants. We believe the speed of this new process will
minimize the need for universities to assign nine digit identification numbers (“temporary
SSNs”) since foreign students will get their “official” SSNs more quickly.

On December 16, 2003, we published a Notice of Proposed Rulemaking (NPRM) to require
evidence of actual employment before issuing an SSN to a foreign student. We are currently
evaluating the comments received on the NPRM and are revising for submission, as appropriate,
a final regulation to the Office of Management and Budget.

Our comments on the specific recommendations and a technical comment are provided below.

Recommendation 1

SSA should contact the additional universities that OIG identified that issued temporary SSNs
and educate them about the potential risks of this improper practice.

Response

We agree. On March 10, 2004, the Regional Commissioners were sent a note asking them to
contact the 22 universities that had references to "temporary SSNs" on their websites. The
Regional Commissioners were instructed to ask the universities to remove all references to
"temporary SSNs" from their websites and from their informational materials, and to advise the
universities of the purpose and use of the SSN and the potential risks associated with issuing
"temporary SSNs."




                                               E-2
Recommendation 2

SSA should coordinate with national educational associations and foreign student organizations
to educate the university community about the potential risks of referring to student
identification numbers as temporary SSNs.

Response

We agree. We have had an ongoing relationship and dialogue with several of the national
educational associations and will introduce this topic in our next discussion with them.

[SSA also provided a technical comment that was considered and incorporated, where
appropriate.]




                                              E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments
In addition to those named above:

   Walter Bayer, Director

   Kathy Youngblood, Senior Auditor

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-04-24018.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
